            SUPERFUND ACTIVITIES IN THE
    ENVIRONMENT AND NATURAL RESOURCES DIVISION
           FOR FISCAL YEARS 2002 AND 2003

                             EXECUTIVE SUMMARY

      On December 11, 1980, the Comprehensive Environmental Response,
Compensation and Liability Act of 1980 (known as CERCLA or Superfund)
was signed into law. CERCLA provides for liability, compensation, cleanup,
and emergency response for hazardous substances released into the
environment and uncontrolled and abandoned hazardous waste sites.
Executive Order 12580, issued January 23, 1987, gives the Attorney General
responsibility for the conduct and control of all CERCLA litigation, which is
conducted by the Environment and Natural Resources Division (ENRD). In
accordance with the legislation, the Environmental Protection Agency (EPA)
issues interagency agreements to the ENRD to reimburse it for costs
incurred in performing such litigation.

       In Fiscal Year (FY) 1987, under the statutory authority of
31 U.S.C. § 1535, the EPA began transferring appropriated funds to the
Department of Justice through interagency agreements. These agreements
authorized the ENRD to be reimbursed for costs incurred in performing
Superfund activities. The EPA authorized the ENRD reimbursements of
$28.1 million for FY 2002 and $27.9 million for FY 2003 in accordance with
EPA Interagency Agreements DW-15-93796801-9 and DW-15-93796801-B,
respectively. These agreements also require the ENRD to maintain a system
that documents the cost of the litigation. To this end the ENRD uses a cost
distribution process designed and maintained by a private contractor.

       The cost distribution system serves as the basis to distribute labor
costs and indirect costs to Superfund cases. It was designed to process
financial data from ENRD Expenditure and Allotment (E&A) Reports into:
1) Superfund direct costs by specific case, broken down between direct labor
costs and all other direct costs; 2) non-Superfund direct costs; and
3) allocable indirect costs.1

       The objective of our audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FY 2002 and FY 2003. We designed the audit to compare
       1
          Other direct costs charged to individual cases include: special masters, expert
witnesses, interest penalties, travel, filing fees, transcription (court and deposition),
litigation support, research services, graphics, and non-capital equipment.
reported costs on the contractor developed Accounting Schedules and
Summaries for FY 2002 and FY 2003 to those recorded on Department of
Justice accounting records, and to review the cost distribution system used
by the ENRD to allocate incurred costs to Superfund and non-Superfund
cases. To accomplish this we performed the following steps:

  •   Compared total costs recorded as paid on the E&A Reports to the
      amounts reported as Total Amounts Paid on the year end Accounting
      Schedules and Summaries, and traced the costs to the Superfund
      cases.

  •   Reviewed the ENRD’s methodology for identifying Superfund cases by
      comparing a select number of cases against ENRD case assignment
      criteria.

  •   Reviewed direct labor costs and indirect costs distributed to Superfund
      against the contractor-developed methodology.

  •   Compared Other Direct Costs to source documents to validate their
      allocability.

      In our judgment, the ENRD provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases during
FY 2002 and FY 2003. We provided ENRD officials with an opportunity to
discuss the audit results during an exit conference and the offer was
declined. The audit report contains no recommendations and is therefore
closed with no response required from the ENRD. The details of our review
are contained in the Audit Results section of the report. Additional
information about our audit objectives and scope is contained in Appendix I.




                                      ii
                               TABLE OF CONTENTS
                                                                                           Page

INTRODUCTION .................................................................................... 1

AUDIT RESULTS.................................................................................... 2

  Superfund Costs for FY 2002 and FY 2003 ............................................. 2

APPENDIX I – OBJECTIVES AND SCOPE.................................................. 11

APPENDIX II – CASES IN SAMPLE REVIEW.............................................. 12

APPENDIX III – FY 2002 ACCOUNTING SCHEDULES & SUMMARIES ............ 15

APPENDIX IV – FY 2003 ACCOUNTING SCHEDULES & SUMMARIES............. 23

APPENDIX V – VIEWS OF RESPONSIBLE OFFICIALS AND REPORT STATUS .. 32
                                  INTRODUCTION

       The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund) provides for liability,
compensation, cleanup, and emergency response for: 1) hazardous
substances released into the environment, and 2) uncontrolled and
abandoned hazardous waste sites.2 Executive Order 12580, issued
January 23, 1987, provides that the Attorney General is responsible for the
conduct and control of all litigation arising under Superfund. The Order also
requires the Administrator of the Environmental Protection Agency (EPA) to
transfer from the Hazardous Substance Response Trust Fund resources to
support Superfund activities.

       In Fiscal Year (FY) 1987, under the statutory authority of
31 U.S.C. §1535, the EPA began transferring appropriated funds to the
Department of Justice through interagency agreements. These agreements
authorized the Environment and Natural Resources Division (ENRD) to be
reimbursed for costs incurred in performing Superfund activities. The EPA
authorized the ENRD reimbursements of $28.1 million for FY 2002 and $27.9
million for FY 2003 in accordance with EPA Interagency Agreements
DW-15-93796801-9 and DW-15-93796801-B, respectively.

       The initial agreements in 1987 also required accounting and reporting
of recoverable case-related costs. Accordingly, at that time the ENRD
instituted a system designed by Rubino & McGeehin, Chartered, Certified
Public Accountants and Consultants (contractor). The system was designed
to process financial data from Expenditure and Allotment (E&A) Reports into:
1) Superfund direct costs by specific case, broken down between direct labor
costs and all other direct costs; 2) non-Superfund direct costs; and
3) allocable indirect costs.3 We reviewed this process and a sample of
transactions of other direct costs to assess the allocability of such costs to
Superfund and non-Superfund cases during FY 2002 and FY 2003.




       2
           Amended by the Superfund Amendments and Reauthorization Act of 1986.
       3
          Other direct costs charged to individual cases include: special masters, expert
witnesses, interest penalties, travel, filing fees, transcription (court and deposition),
litigation support, research services, graphics, and non-capital equipment.
                             AUDIT RESULTS

            Superfund Costs for FY 2002 and FY 2003

       We reviewed financial activities and procedures used by the
       ENRD to document, compile, and allocate direct and indirect
       costs charged to Superfund cases. In our judgment, the ENRD
       provided an equitable distribution of total labor costs, other
       direct costs, and indirect costs to Superfund cases during
       FY 2002 and FY 2003.

      We designed the audit to compare reported costs on the contractor
developed Accounting Schedules and Summaries for FY 2002 and FY 2003
(see Appendix III and Appendix IV) to that recorded on Department of
Justice accounting records, and to review the cost distribution system used
by the ENRD to allocate incurred costs to Superfund and non-Superfund
cases. To accomplish this we performed the following steps:

   •   Compared total costs recorded as paid on the E&A Reports to the
       amounts reported as Total Amounts Paid on the year end Accounting
       Schedules and Summaries, and traced the costs to the Superfund
       cases.

   •   Reviewed the ENRD’s methodology for identifying Superfund cases by
       comparing a select number of cases against the ENRD case
       assignment criteria.4

   •   Reviewed direct labor costs and indirect costs distributed to Superfund
       against the contractor-developed methodology.

   •   Compared Other Direct Costs to source documents to validate their
       allocability.

      We examined these items to ensure that costs distributed to
Superfund and non-Superfund cases were based on the total of actual costs
for each fiscal year, that the distribution methodology used and accepted in
prior years remained viable, and that selected costs were supported by
documentation that evidenced their allocability to Superfund and
non-Superfund cases. This would permit us to determine if the ENRD
provided an equitable distribution of total labor, other direct costs, and


       4
        ENRD memorandum dated December 20, 2001, provides guidance on the
determination of Superfund cases.


                                        2
indirect costs to Superfund cases during FY 2002 and FY 2003. Following
are the results of our review.

Reconciliation of Contractor Accounting Schedules and Summaries to
E&A Reports

    The E&A Reports for FY 2002 and FY 2003 provided the following
amounts paid for total ENRD expenses:

                      ENRD Payments By Fiscal Year
              Description           2002            2003
     Salaries                    $54,348,838    $ 57,742,009
     Benefits                     12,767,489       13,884,179
     Travel                        2,776,541        2,126,706
     Freight                         466,328          358,032
     Rent                         11,351,291       12,228,663
     Printing                        184,622          263,358
     Services                     12,535,987       13,781,038
     Supplies                        701,577          716,877
     Equipment                       854,784          777,675
     Total                       $95,987,457    $101,878,538
    Source: ENRD E&A Reports for Fiscal Years Ending 09/30/02 and 09/30/03

      For each fiscal year, we compared these E&A amounts to those in
Schedule 6, Reconciliation of Total ENRD Expenses, of the contractor
Accounting Schedules and Summaries to ensure that the distribution of costs
to Superfund and non-Superfund cases was limited to total costs incurred.
We found that the Schedule 6 amounts reconciled to the ENRD E&A Reports.
We then traced these amounts to the distributions on Schedule 5, Superfund
Costs by Object Classification, and Schedule 2, Superfund Obligation and
Payment Activity…By Fiscal Year of Obligation. We also found that the
amounts on these schedules reconciled through Schedule 6 to the E&A
Reports. Our review then focused on determining that the summary
amounts on Schedule 2 represented an equitable distribution of costs to
Superfund. The Superfund costs in Schedule 2 of the Accounting Schedules
and Summaries for FY 2002 and FY 2003 reported the following:




                                         3
               Superfund Distributed Costs by Fiscal Year
           Cost Categories             2002             2003
  Labor                             $ 7,017,674        $ 7,767,463
  Other Direct Costs                   2,071,671          3,825,822
  Indirect Costs                      13,649,159         16,835,538
  Superfund Program Expenses             574,819            182,381
  Unliquidated Obligations             4,916,997          5,427,457
  Totals                            $28,230,320        $34,038,661
 Source: Schedule 2 of the Contractor’s Accounting Schedules and Summaries.

      Our starting point for reviewing the distribution system was to identify
and reconcile the ENRD cases as Superfund or non-Superfund. This enabled
us to extract only Superfund data from the ENRD data to compare to the
Accounting Schedules and Summaries.

Superfund Case Reconciliation

       The ENRD litigates non-Superfund and Superfund cases. In order to
control the processing of cases, ENRD assigns each case unique identifying
numbers. The ENRD maintains an annual database of Superfund cases; this
database identified 1,275 cases in FY 2002 and 1,147 in FY 2003 that
incurred costs. We reviewed the database to establish the method used by
the ENRD to identify Superfund cases, and case files to determine if cases
were identified in accordance with established ENRD criteria for case
identification.

       We randomly selected 30 cases from the FY 2002 Superfund database
and 47 cases from the FY 2003 Superfund database (see Appendix II) to test
if the ENRD sections adhered to the procedures and identified the cases
properly.5 We reviewed the cases against the ENRD case data, including
case intake worksheets, case opening forms, case transmittals, and e-mails.
The ENRD used the case data entering forms to record summary information
from the case. The information referred to laws, regulations, or other
language that established the cases as either Superfund or non-Superfund
for tracking purposes.

       For FY 2002, we found that 29 of the 30 cases reviewed contained
proper referencing documentation in the case files to justify the Superfund
classification. The ENRD could not locate one case file we selected for
review. The ENRD provided a printout of the missing case file's index sheet

      5
          The ENRD Sections included were the Environmental Crimes; Environmental
Defense; Environmental Enforcement; General Litigation; Land Acquisition; and Policy
Legislation and Special Litigation.


                                            4
indicating the file contained a Case Opening Form. Also, the ENRD provided
a printout of the Case Management System Detailed sheet indicating the
case was designated Superfund. However, due to the missing case folder,
the actual Case Opening Form and the court documents verifying the
Superfund status could not be cited. The missing case file is an isolated
incident; therefore, no exception is noted.

       For FY 2003, we found that the 22 cases reviewed contained proper
referencing documentation in the case files to justify the Superfund
classification. However, we noted that one case folder, White River Fishkill
(Matter ID 198-26S-00292), contained documentation stating that the case
was closed as a Superfund case on June 18, 2001. The electronic data
provided by ENRD indicated that there was time charged to this case during
FY 2003. Therefore, we expanded our sample size to include 25 additional
cases. We found that the 25 cases reviewed contained proper referencing
documentation in the case files to justify the Superfund classification.

       Following our review of the additional cases, the case manager
confirmed with the attorney assigned to the White River Fishkill case that the
time charged to the closed case was accurate based on work performed
subsequent to June 18, 2001. Therefore, no exception is noted. In our
judgment, the ENRD identified Superfund cases based on appropriate
criteria.

Superfund Cost Distribution

       Since we found that the ENRD’s case identification method adequately
identified Superfund cases, we next reviewed: 1) the system used by the
contractor to distribute direct labor and indirect costs, and 2) other direct
costs charged to Superfund. Following are the results of our review of the
cost categories.

Labor

      The contractor continued using the labor distribution system from prior
years, which we reviewed and accepted in prior audits. The ENRD provided
the contractor with electronic files that included employee time reporting
information and biweekly salary information downloaded from the National
Finance Center, which processes biweekly salaries for the ENRD employees.
The contractor uses the following formula to distribute labor costs monthly:




                                      5
Salary Starting Point:   Employee Biweekly Salary
Divided by:              Employee Reported Biweekly Work Hours
Equals:                  Biweekly Hourly Rate
Multiplied by:           Employee Reported Monthly Superfund and
                         Non-Superfund Case Hours
Results In:              Distributed Individual Monthly Labor Case Cost

       For purposes of our review, we:

   •   Matched the total Superfund and non-Superfund labor costs to that
       reported on the E&A reports for FY 2002 and FY 2003.

   •   Acquired and reviewed electronic labor files and selected salary files
       that the ENRD provided to the contractor and the resultant electronic
       files prepared by the contractor to summarize costs by employee and
       case.

   •   Extracted and reconciled Superfund case costs from the contractor
       files by using the validated case numbers discussed earlier in this
       report.

       Since the E&A and Accounting Schedules and Summaries amounts
matched, this assured us that the distribution method, which parallels a
management information system and not an accounting system, was limited
to allocating just the total of costs paid for each fiscal year.

       We performed selected database matches to compare the ENRD
employee time and case data against the contractor’s electronic files used to
prepare the Accounting Schedules and Summaries, and to identify Superfund
case data. As previously mentioned, we were able to rely on the Superfund
case database to match the ENRD case list to the contractor’s completed
schedules. We compared the electronic files of the ENRD to the contractor’s
and determined that the total Superfund hours were 177,083.89 for FY 2002
and 180,013.31 for FY 2003. To determine the number of Superfund cases
with direct labor costs for each fiscal year, we compared the Superfund billed
time data, which included 1,275 transactions in FY 2002 and 1,147
transactions in FY 2003, against the electronic files prepared by the
contractor. Through our database matches, we found no reportable
differences in the total number of Superfund cases with direct labor costs for
each fiscal year.

      Next, using the contractor’s electronic files, we determined that the
Direct Labor for Superfund cases were $7,017,674 for FY 2002 and
$7,767,463 for FY 2003. We traced these amounts to the Accounting


                                         6
Schedules and Summaries. Additionally, we selected one month in each
fiscal year (January 2002 and January 2003) to review the effective hourly
rates by employee calculated by the contractor. We found no reportable
differences.

      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of labor
costs to Superfund cases. Therefore, in our judgment, this process provided
for an equitable distribution of direct labor costs to Superfund cases during
FY 2002 and FY 2003.

Indirect Costs

       In addition to direct costs incurred against specific cases, the ENRD
also incurs indirect costs that it allocates to all cases. These include
primarily salaries, benefits, travel, freight, rent, printing, services, supplies,
and equipment. The contractor distributes indirect costs to individual cases
using an indirect cost rate that is calculated on a fiscal year basis.

      According to its indirect cost methodology, the contractor uses actual
payments by the ENRD as the basis for the indirect cost base and expense
pool for calculation of the indirect cost rate. The contractor calculates
indirect costs by subtracting the amount of direct costs from the total costs
paid according to the ENRD's E&A report. The contractor divides this
amount by total direct labor for the period to calculate the ENRD indirect
cost percentage. Additionally, the contractor identifies indirect costs that
support only Superfund activities and uses these costs to develop a separate
Superfund specific indirect rate, which is calculated by dividing these costs
by Superfund direct labor. The rates for FY 2002 and FY 2003 follow.

                       Indirect Cost Rates By Fiscal Year
                 Category                2002            2003
         ENRD Indirect                       190%           192%
         Superfund Specific                   33%             25%
         Combined Rate                       223%           217%
       Source: Schedule 4 of Accounting Schedules and Summaries. Percentages
               rounded to nearest whole percent.

       Using the ENRD’s E&A reports and the contractor’s electronic files, we
reconciled the total indirect amounts to the contractor’s Accounting
Schedules and Summaries, Schedule 4 to ensure that the contractor used
only paid costs to accumulate the expense pool. We determined that the
total amount of indirect costs for FY 2002 were $54,638,972 versus the
contractor’s calculation of $54,648,841 ($9,869 or .02 percent variance).


                                         7
Furthermore, we determined that the total amount of indirect costs for
FY 2003 were $58,973,458 versus the contractor’s calculation of
$58,973,460 ($2 variance). These variances had negligible impact upon the
indirect cost rates and are considered immaterial. In our judgment, the
indirect expenses calculated by the contractor are materially accurate.
Therefore, this process provided for an equitable distribution of indirect costs
to Superfund cases during FY 2002 and FY 2003.

Other Direct Costs

       The amounts of other direct costs incurred by the ENRD and
distributed to Superfund during FY 2002 and FY 2003 are provided in the
following table.

               Superfund Other Direct Costs by Fiscal Year
        Subobject Code and Description          2002          2003
 1153-Special Masters Compensation            $    22,567  $     17,094
 1157-Expert Witness Fees                       1,910,408    1,691,168
 2100-Travel and Transportation                   523,653      466,160
 2411-Printing and Reproduction, Court             41,245        18,452
       Instruments
 2499-Printing and Reproduction, All Other          4,780         1,229
 2508-Reporting and Transcripts-Deposition        196,105      140,784
 2509-Reporting and Transcripts-Grand Jury          1,602
 2510-Reporting and Transcripts-Court               4,931         4,608
 2529-Litigation Support                        1,147,760    1,483,924
 2534-Research Services                             1,021           126
 2537-Advisory and Assist                           2,501       (2,501)
 2557-Litigation Graphics                          12,273           115
 2563-Interest Penalties-Government                   594           770
 2598-Miscellaneous Litigation Expenses             1,573         1,031
 2599-Other Services                               37,573         (591)
 3129-Non-Capitalized Automated Litigation         26,033
       Support Equipment
 Totals                                      $3,934,6176   $3,822,369
Source: Extracted from the Contractor’s electronic files of FY 2002 and FY 2003 other direct
        costs used to generate the fiscal year end accounting schedules and summaries.

We reviewed selected transactions in the following four subobject codes:

   •   1157 – Expert Witness Fees,
   •   2100 – Travel and Transportation,

       6
           Variance of $2 is due to rounding.


                                                8
   •   2508 – Reporting and Transcripts – Deposition, and
   •   2529 – Litigation Support.

For FY 2002, these four subobject codes comprised 86 percent of the
transaction universe and 96 percent of the dollar universe. For FY 2003,
these four subobject codes comprised 88 percent of the transaction universe
and 99 percent of the dollar universe. We stratified the high dollar
transactions within these subobject codes and tested 100 percent of these
transactions. We reviewed other transactions based on a statistical sample.

       For FY 2002, our sample population contained 1,474 transactions
totaling $3.8 million and for FY 2003, 1,546 transactions totaling $3.8
million. We reviewed 185 transactions totaling $1.4 million and 173
transactions totaling $1.2 million for FY 2002 and FY 2003, respectively. We
designed our review of the transactions in other direct costs to determine if
the selected FY 2002 and FY 2003 transactions included adequate support
against the following four attributes:

   •   Correct subobject code classification – verified the correct subobject
       code was used to classify the cost;

   •   Correct Superfund/non-Superfund classification – verified the case
       number appearing on the documents matched the case number in the
       Superfund database;

   •   Correct dollar amount – verified the dollar amounts listed in the other
       direct costs database matched the amounts on the supporting
       documentation; and

   •   Proper approval – verified the proper approval was obtained on the
       vouchers paying the other direct costs.

      Our tests resulted in no exceptions in the transactions tested against
the four reviewed attributes for Expert Witness Fees (subobject code 1157)
and Litigation Support (subobject code 2529). In Travel and Transportation
(sub-object code 2100), we noted that the case number appearing on the
documents did not match the case number in the Superfund database on
three vouchers in FY 2002 and two vouchers in FY 2003.7 Also, one voucher
in FY 2002 could not be located.8 In Reporting and Transcripts – Deposition

       7
       Voucher numbers for FY 2002 were: Y213556, Y222157, and 12168108. Voucher
numbers for FY 2003 were: 031265 and 93232136.
       8
           Voucher number V2014781.



                                       9
(subobject code 2508), we noted that one voucher in FY 2002 could not be
located.9 Based on our statistical sampling methodology and the results of
our testing, we are 95 percent confident that exceptions do not exceed
3 percent of the transaction universe for the subobject codes tested. The
error rates we identified fell below 3 percent and were not considered
material. Accordingly, we did not take exception to the errors or project the
results to the total universe of transactions in FY 2002 and FY 2003. In our
judgment, adequate internal controls existed over the recording of other
direct charges to accounting records and Superfund cases. Therefore, this
process provided for an equitable distribution of other direct labor costs to
Superfund cases during FY 2002 and FY 2003.

      While performing testing we found that of the 167 travel transactions
reviewed, 3 authorizations in FY 2002 and 3 authorizations in FY 2003 were
approved after the traveler returned from travel.10 We reported this finding
in previous audit reports.11 In response to this finding in our report number
96-12, May 1996, the ENRD issued a memorandum dated September 12,
2003 to Section Managers reminding them of their responsibilities under the
travel regulations. Since the memorandum was issued near the end of
FY 2003, the effect of the ENRD’s actions will not be known until our audit of
Superfund activities in the ENRD for FY 2004.

Overall Summary

      In our judgment, the ENRD provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases during
FY 2002 and FY 2003.




      9
           Voucher number 2R1000169.
      10
         Vouchers numbers for FY 2002: 1214314, Y225325, and 12141111. Voucher
numbers for FY 2003: 1235467, 43065300, and 32354249.
      11
           Office of the Inspector General (OIG) report number 96-12, May 1996, Superfund
Activities in the Environmental and Natural Resources Division for Fiscal Year 1994; OIG
report number 00-08, March 2000, Superfund Activities in the Environmental and Natural
Resources Division for Fiscal Year 1997; and OIG report number 03-34, September 2003,
Superfund Activities in the Environment and Natural Resources Division for Fiscal Years
2000 and 2001.


                                           10
                                                                APPENDIX I

                       OBJECTIVES AND SCOPE

       The purpose of the audit was to determine if the cost allocation
process used by the ENRD and its contractor provided an equitable
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FY 2002 and FY 2003. To accomplish the overall objective the
audit, we assessed whether: 1) the ENRD identified Superfund cases based
on appropriate criteria, 2) costs distributed to cases were limited to costs
reported in E&A Reports, and 3) adequate internal controls existed over the
recording of direct labor time to cases and the recording of other direct
charges to accounting records and Superfund cases.

      The audit focused on, but was not limited to, financial activities and
the procedures used by the ENRD to document, compile, and allocate direct
and indirect costs charged to Superfund cases from October 1, 2001 through
September 30, 2003. Based on discussions with the ENRD management,
there have been no changes to the various processes. Therefore, for our
assessment of internal controls over the compilation of direct labor charges,
we relied on the results in OIG report number 01-19, August 2001,
Environmental and Natural Resources Division Network Computer Security
and Case Management System Internal Control Audit.

     We conducted our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States.




                                       11
                                                          APPENDIX II

                   CASES IN SAMPLE REVIEW

Fiscal Year 2002

Case No.            Section

198-22-00380/1      Environmental Crimes
198-1-00323         Environmental Crimes
198-13-00147        Environmental Crimes
198-75-00486        Environmental Crimes – Case folder missing
198-31-00216        Environmental Crimes
90-11-5-05895/1     Environmental Defense
90-11-6-05232       Environmental Defense
90-11-6-05805       Environmental Defense
90-11-6-05630       Environmental Defense

90-11-5-05965       Environmental Defense
90-11-2-1075/2      Environmental Enforcement
90-11-2-1192/4      Environmental Enforcement
90-11-2-283/1       Environmental Enforcement
90-11-2-06345       Environmental Enforcement
90-11-2-383         Environmental Enforcement
90-1-23-10202       General Litigation
90-1-23-10662       General Litigation
90-11-6-05937/3     General Litigation
90-1-23-09167       General Litigation
90-1-23-09264       General Litigation
33-41-128-07665     Land Acquisition
33-41-128-07662     Land Acquisition
33-33-1143-09740    Land Acquisition
33-41-128-07658     Land Acquisition
33-41-128-08208     Land Acquisition
90-12-01779         Policy Legislation & Special Litigation
90-12-01816         Policy Legislation & Special Litigation
90-12-01724         Policy Legislation & Special Litigation
90-12-01671         Policy Legislation & Special Litigation
90-12-01316         Policy Legislation & Special Litigation




                                  12
Fiscal Year 2003

Case No.           Section

198-37-00260       Environmental Crimes
198-65-00317       Environmental Crimes
198-76-00556/1     Environmental Crimes
198-77-00536       Environmental Crimes
198-26S-00292      Environmental Crimes
198-44-00326       Environmental Crimes
198-48-00514/1     Environmental Crimes
198-44-00326/1     Environmental Crimes
198-31-00239       Environmental Crimes
198-67-00375       Environmental Crimes
198-41-00503       Environmental Crimes
198-8-00499        Environmental Crimes
198-32-00487/1     Environmental Crimes
198-12C-00522/1    Environmental Crimes
198-61-00551       Environmental Crimes
90-11-6-16803      Environmental Defense
90-11-7-05738      Environmental Defense
90-11-6-17060      Environmental Defense
90-11-6-16062      Environmental Defense
90-11-6-16250      Environmental Defense
90-11-6-16156      Environmental Defense
90-11-6-16829      Environmental Defense
90-11-5-16897      Environmental Defense
90-11-6-16773      Environmental Defense
90-11-6-06021/3    Environmental Defense
90-11-3-07051      Environmental Enforcement
90-11-2-07483/1    Environmental Enforcement
90-11-2-721        Environmental Enforcement
90-11-2-1096/1     Environmental Enforcement
90-11-2-372A       Environmental Enforcement
90-11-2-06089      Environmental Enforcement
90-11-3-1638/2     Environmental Enforcement
90-11-2-07106/2    Environmental Enforcement
90-11-3-1486/1     Environmental Enforcement
90-11-2-93/1       Environmental Enforcement
90-1-23-10940      General Litigation
33-5-3131-10450    Land Acquisition
33-46-434-07072    Land Acquisition
33-41-128-07654    Land Acquisition
33-41-128-07659    Land Acquisition


                               13
Case No.           Section

33-5-3130-08716    Land Acquisition
33-33-1146-10375   Land Acquisition
33-7-300-10522     Land Acquisition
33-22-2429-10883   Land Acquisition
33-41-128-09206    Land Acquisition
33-41-128-07665    Land Acquisition
90-12-01185/1      Policy Legislation & Special Litigation




                                 14
                                APPENDIX III

FY 2002 ACCOUNTING SCHEDULES & SUMMARIES




                   15
16
17
18
19
20
21
22
                                 APPENDIX IV

FY 2003 ACCOUNTING SCHEDULES & SUMMARIES




                   23
24
25
26
27
28
29
30
31
                                                           APPENDIX V

VIEWS OF RESPONSIBLE OFFICIALS AND REPORT STATUS

      We provided ENRD officials with an opportunity to discuss the audit
results during an exit conference and the offer was declined. The audit
report contains no recommendations and is therefore closed with no
response required from the ENRD. The details of our review are contained in
the Audit Results section of the report.




                                    32
